   AUDIT OF DOT’S INFORMATION
SECURITY PROGRAM AND PRACTICES
       Department of Transportation

       Report Number: FI–2010–023
      Date Issued: November 18, 2009
                      Memorandum
           U.S. Department of
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Audit of Information Security                                        Date:   November 18, 2009
           Program, Department of Transportation
           Report Number: FI-2010-023

  From:    Calvin L. Scovel III                                                     Reply to
                                                                                    Attn. of:   JA–20
           Inspector General

    To:    Chief Information Officer

           The Department of Transportation’s (DOT) annual $3 billion information
           technology (IT) portfolio is one of the largest among the Federal civilian agencies.
           DOT’s IT budget currently covers more than 400 information systems across 13
           Operating Administrations—nearly two-thirds of which belong to the Federal
           Aviation Administration (FAA). DOT’s financial systems manage and disburse
           over $50 billion in Federal funds each year.

           In May 2009, the White House reported on the urgent need to secure the Nation’s
           digital infrastructure from individuals who compromise, steal, change, or destroy
           information vital to our economy and national security. 1 To protect information
           and information systems that support Federal operations and assets from such
           cyber threats, the Federal Information Security Management Act (FISMA) of 2002
           requires agencies to develop, document, and implement agency-wide information
           security programs. FISMA also requires agency program officials, chief
           information officers (CIO), and inspectors general to conduct annual reviews of
           their agency’s information security program and report the results to the Office of
           Management and Budget (OMB).

           Consistent with FISMA and OMB requirements, our overall audit objective was to
           determine the effectiveness of DOT’s information security program and practices.
           Specifically, we assessed DOT’s (1) information security policy, (2) enterprise
           level information security controls, (3) management of known information
           security weaknesses, (4) system level security controls, and (5) controls over
           privacy related information. As required by OMB, we also provided various
           assessments and performance measures to OMB via its Web portal. 2

           1
               White House Report on Cyberspace Policy Review, May 2009.
           2
               OMB has designated this information as “For Official Use Only.” Consequently, our submission to OMB is not
               contained in this report.
                                                                                                                      2



To conduct our work, we selected a representative subset of 45 departmental
systems and reviewed their compliance with National Institute of Standards and
Technology (NIST) and OMB requirements in seven areas: risk categorization,
security plans, annual control testing, contingency planning, certification and
accreditation, incident reporting, and plan of actions and milestones. We also
conducted testing to assess the Department’s inventory of systems, its overall
process of resolving information security weaknesses, certain privacy
requirements, configuration management, incident reporting, and security-
awareness training. Our tests included analysis of data contained in the
Department’s Cyber Security Assessment and Management system, reviews of
supporting documentation, and interviews with departmental officials. We also
used commercial scanning software to assess compliance with Federal Desktop
Core Configuration (FDCC) requirements.          Our audit was conducted in
accordance with generally accepted government auditing standards. See Exhibit A
for more details on our scope and methodology.


RESULTS IN BRIEF
During fiscal year 2009, DOT made notable improvements in two key areas.
First, the Department’s Office of the Chief Information Officer (OCIO) completed
and issued its long-awaited information security policy that was required by
FISMA in 2002—the first step in building a sustainable information security
program. This much-needed policy addressed all of NIST’s 17 information
security control areas. Second, DOT significantly improved its Common
Operating Environment’s compliance with FDCC, which prescribes secure
settings for Windows XP software. 3 These actions are consistent with those
recommended in our October 2008 report. 4

Despite these accomplishments, the Department has not made the progress needed
to address other critical areas. As a result, the departmental information security
program is not as effective as it should be, and is non-compliant with all key
FISMA and OMB requirements. We noted weaknesses in five critical areas:

• First, the OCIO’s security policy lacks key elements, such as identifying staff
  that require specialized training to understand system security risks and their
  role in mitigating those risks. Such omissions contributed to other deficiencies
  we identified.
• Second, the Department has not demonstrated sufficient progress in
  implementing enterprise-level controls. Specifically, not all of its operating

3
    The Common Operating Environment provides network infrastructure support to DOT Headquarters and remote
    offices, except FAA.
4
    Audit of Information Security Program, OIG Report FI-2009-003, October 8, 2008. OIG reports and testimonies can
    be found on our Web site at www.oig.dot.gov.
                                                                                           3



       systems and database systems have security baseline configurations; the
       Department has no confirmation that all major security incidents reported to
       the Department of Homeland Security were received; and it has not provided
       essential security training to all employees and contract staff.
• Third, the Department has not effectively identified, tracked, or prioritized
  information security weaknesses to efficiently resolve these weaknesses. Of
  the approximately 5,400 DOT weaknesses that were tracked, about 1,000 were
  not remediated in a timely manner. Further, about 300 were not assigned a
  priority level and 2,400 lacked an estimated cost for remediation.
• Fourth, DOT has not provided adequate controls to protect or recover its
  systems and system interfaces in the event of a disruption. For example, DOT
  has not fully inventoried its system interfaces—including 18 e-Government
  initiatives, such as e-Payroll—with external systems, and could not provide
  security agreements for interfaces. Further, of the 45 DOT systems we
  reviewed, we found that half were not appropriately certified and accredited,
  did not have tested contingency plans, or both.
• Last, the Department has not fully protected privacy related information. DOT
  lacks an accurate count of systems that are privacy related and did not
  complete privacy impact assessments for at least 40 percent of these systems.
  In addition, DOT has not made significant progress in meeting OMB’s
  requirement to reduce the use of social security numbers (SSN) by November
  2009. FAA alone does not plan to satisfy this requirement until 2015. Finally,
  DOT has not used sufficient authentication and encryption procedures to
  control remote users’ access to its networks.

To assist the agency in establishing and sustaining an effective information
security program—one that complies with FISMA, OMB, and NIST
requirements—we are making a series of recommendations, beginning on page 16.
A draft of this report was provided to the Department’s CIO on November 9,
2009. On November 16, 2009 we received the CIO’s response, which can be
found in its entirety in the Appendix. The CIO generally concurred with our
findings and recommendations and in 30 days will provide written comments
describing the actions and milestones that will be taken to implement the
recommendations.


BACKGROUND
Ensuring a secure global digital information and communications infrastructure is
one of the President’s seven guiding principles in protecting the American
people. 5 The White House subsequently reported that the Federal Government, as

5
    White House Issues: Homeland Security (www.whitehouse.gov/issues/homeland-security).
                                                                                     4



well as the private sector, is facing new cyber security threats. These threats
include terrorists and international crime groups who are targeting U.S. citizens,
commerce, critical infrastructure, and Government in order to steal, change, or
destroy information. Undeterred, these individuals have the potential to
undermine national security, degrade civil liberties protections, and even cripple
society.

In October 2008, we reported that the Department’s information security program
and practices did not effectively safeguard DOT’s IT systems and information.
Specifically, we found that DOT had not established adequate policies,
procedures, and training to identify information-security weaknesses and protect
or recover computer systems and networks, including those with personally
identifiable information (PII). We made 27 specific recommendations aimed at
addressing these deficiencies. (See Exhibit C for a list of our recommendations
and their implementation status.)


DOT’S INFORMATION                SECURITY         POLICY       LACKS        KEY
ELEMENTS

FISMA requires the Chief Information Officer to develop and maintain
information security policies, procedures, and control techniques to address
security requirements. In fiscal year 2009, the Department issued a series of 19
information security policies. However, the policies lack critical elements to
effectively and adequately guide the agency’s information security program (see
Table 1). The lack of an adequate policy increases the likelihood that Operating
Administrations will create internal practices and ad-hoc procedures, which may
not comply with OMB or DOT requirements. The deficiencies in DOT’s
information security policies have also contributed to the other weaknesses
documented in this report.
                                                                                                   5



Table 1: Examples of Information Security Policy Deficiencies by
Program Area

Description                                   OIG Policy Evaluation
Incident Reporting
Detecting, reporting, and responding to       The policy does not document the requirement to
security incidents, including notifying law   report incidents to law enforcement and OIG as
enforcement agencies and relevant OIGs.       required by FISMA and OMB.
Plans of Action and Milestones
The POA&M tracks the measures                 The policy does not specifically identify the
implemented to correct deficiencies and to    required data elements to properly document and
reduce or eliminate known vulnerabilities.    report on information systems’ or programs’
                                              security weaknesses throughout the lifecycle as
                                              required by OMB. Such information includes:
                                              Description of Weaknesses, Scheduled
                                              Completion Date, Key Milestones with Completion
                                              Dates, Milestone Changes, Source (e.g., program
                                              review, IG audit, GAO audit, etc.), and Status.
Security Training
Disseminate security information that the  The policy does not address the identification of
workforce, both employees and contractors, users with login privileges to the Department
need to do their job.                      information systems. In addition, it does not
                                           identify specific job functions that require
                                           specialized security training, such as CIO, ISSO,
                                           Database Administrator, etc.
Contractor Oversight
Monitor the effectiveness of security for     The policy does not contain contractor oversight
systems that support the operations and       provisions that would ensure that proper security
assets of the agency, including those         for the contracted information and systems are in
provided or managed by another agency,        adherence with NIST, OMB, and FISMA
contractor, or other source.                  requirements.
External Interfaces
Enforces System                               The policy does not provide any guidance on the
Interconnection/Information Sharing and       preparation of these critical interface agreements
Interconnection Security Agreement,           nor does it address key elements of NIST
Memorandum of Understanding, or               guidance.
Memorandum of Agreement between
systems that share data that are owned or
operated by different organizations.
Source: OIG Analysis



ENTERPRISE-LEVEL CONTROLS WERE INADEQUATE

Enterprise-level controls are controls that are implemented throughout the entire
organization or infrastructure, such as configuration management, reporting of
security incidents, and security training. While DOT has made significant
progress in implementing security baseline configurations for Windows XP
operating systems in the Common Operating Environment, it has not demonstrated
                                                                                                             6



sufficient progress for other operating systems and databases. In addition, the
Department has not provided evidence that all security incidents, including those
that potentially breach PII, were reported to the Department of Homeland
Security. Furthermore, while DOT has reported improvement to the number of
employees receiving security awareness training, it still cannot provide evidence
that all users received the training, including those requiring specialized security
training.

Baseline Configuration Standards Have Not Been Fully Implemented

FISMA requires compliance with minimally acceptable system configuration
requirements for commercial software. Common security configurations provide a
baseline level of security and ensure efficient use of resources. To meet this
FISMA requirement, the Department requested Operating Administrations to
submit their configuration baseline and evidence of implementation. While all but
three Operating Administrations have begun implementation, including scanning
their systems to assess compliance, their scanning results indicated a significant
amount of noncompliance needs to be remediated. Moreover, the three Operating
Administrations that have not provided evidence of implementation—FAA,
PHMSA, and SLSDC—together account for 68 percent of systems.

Without complete implementation of baseline configuration standards, the
Department has little assurance that its information systems are sufficiently
protected from known, exploitable weaknesses in key software. Inadequately
configured software also increases security vulnerabilities, which could impact
DOT’s mission and business operations. In our May 2009 report on Web security,
we noted that the inadequate configuration of Web applications contributed to
hackers (1) compromising an FAA Web site to access an internal server, and (2)
taking over FAA computers in Alaska. 6

To meet OMB requirements for system configuration, DOT Acquisition Policy
Letter APL-2007-01 states that contracting officers should include clauses in all IT
solicitations requiring compliance with Federal security standards for Windows
XP and Vista software no later than August 7, 2007. During our review, we found
no evidence in FAA’s Acquisition Management System (AMS) or DOT’s PRISM
system contracts that the required acquisition language on common security
configurations was being incorporated. Without this language, DOT cannot
ensure efficiency and security of its overall IT operations and implementation of
security controls on DOT systems.



6
    Review of Web Applications Security and Intrusion Detection in Air Traffic Control Systems, OIG Report
    FI-2009-049, May 4, 2009. OIG reports and testimonies can be found on our Web site at www.oig.dot.gov.
                                                                                                                         7



The Department Lacks Assurance that All Security Incidents Were
Reported to US-CERT

According to DOT, when a security incident is logged, it is automatically reported
to the United States Computer Emergency Readiness Team (US-CERT), and a
reference number is generated for the security incident. Between July 1, 2008, and
June 30, 2009, DOT had a total of 2,049 confirmed security incidents that needed
to be reported to US-CERT. Yet 743, or 36 percent, of the security incidents did
not have a US-CERT reference number recorded in DOT’s incident logging
system (see Table 2). Among these incidents, 107 security incidents pertained to
potential or confirmed PII breaches and should have been reported within 1 hour.
Without US-CERT reference numbers, DOT cannot determine if the Department
of Homeland Security received this information, undermining the Government’s
ability to properly coordinate among Federal agencies to defend against cyber
attacks.

Table 2: Summary of Incidents Missing US-CERT Reference Numbers
                                                                     Incidents Missing
                         a
US-CERT Category                                                   Reference Numbers                   Percentage
Category 1: Unauthorized Access (e.g., PII breach)                                      107                       14
Category 2: Denial of Service (DOS)                                                        0                        0
Category 3: Malicious Code                                                              393                       53
Category 4: Improper Usage                                                              170                       23
Category 5: Scans/Probes/Attempted Access                                                73                       10
Total Security Incidents                                                                  743                      100
 So ur c e: OI G Ana l ys i s
 a
   US - CE RT Ca te go r y 0 ( E xer ci se /T es t) a nd C ate g o r y 6 ( U nco n f ir me d I nc i d en t s) we r e
   no t i nc l ud ed i n o ur a na l ys i s b eca u se t he y ar e no t r eq u ir ed to b e r ep o r t ed to U S -
   CE RT .



The Department Cannot Identify All Contract Personnel for Security
Awareness Training and All Personnel Requiring Specialized Security
Training

Security Awareness Training

NIST guidance calls for building and maintaining a comprehensive security
awareness and training program that ensures all users are sufficiently trained in
their security responsibilities and how to fulfill them before allowing them access
to DOT information systems. 7 DOT training policy requires that all DOT Line of
Business and Operating Administration (LoB/OA) CIOs ensure basic security

7
    Users may include employees, contractors, foreign or domestic guest researchers, other agency personnel, visitors,
    guests, and other collaborators or associates requiring access.
                                                                                       8



awareness training is provided to all DOT information system users before
authorizing access to the system, upon system changes, and at least annually
thereafter.

While most of the 57,000 DOT employees have received security awareness
training, the Department could not ensure that all contractors with login privileges
had completed the annual security awareness training because the various sources
of information pertaining to contractor staff could not be reconciled. The
Department reported that approximately 14,000 contractor staff were given access
to DOT networks. Using data from the Cyber Security Assessment and
Management (CSAM) system—the Department’s information security reporting
system—we estimated that about 11,000 contractor staff were trained during the
reporting period. However, various training systems showed that about 27,000
contractor staff—almost twice the number of contractor staff DOT reported—were
trained. Until the Department can accurately track contractor staff and users of
DOT networks, it has no assurance that security awareness training is provided to
all people who require it.

Specialized Security Training

DOT policy requires Operating Administrations to determine the appropriate
content of specialized security training based on the specific requirements of their
organization and systems that employees and contractors have access to. It also
requires Operating Administrations to provide to system owners, system and
network administrators, and other personnel having access to system-level
software with adequate specialized security training to perform their assigned
duties.

However, not all employees with significant security responsibilities are receiving
specialized security training. The Department reported 884 employees with
significant security responsibilities. This number did not include approximately 63
in nine Operating Administrations—including nine OA Chief Information
Officers—who should have received specialized training. Our estimate was based
on eight job functions that require specialized training as documented by NIST
800-16. The job functions included Chief Information Officer, Security Officer,
System Administrator, System Developers, Network Administrator, Database
Administrator, System Certifier, and Designated Authorizing Authority (DAA)
(see Table 3).
                                                                                                                     9


Table 3: Unreported Job Functions & Estimated Employees Requiring Specialized
Training




                                                                                                        Unreported
                                                       MARAD

                                                               NHTSA




                                                                                          SLSDC




                                                                                                        Total
                                                                                   RITA
                                          FRA




                                                                             OST




                                                                                                  STB
                                                FTA




                                                                       OIG
Unreported Categories
Chief Information Officer                1      1     1        1       1     1     1      1       1         9
ISSO/ISSM                                       1                            1            1       1         4
System Administrator                     1      1     1        1             1     1      1       1         8
System Designer/Developers               1      1     1        1       1     1     1      1       1         9
Network Administrator                    1      1     1        1             1     1      1       1         8
Database Administrator                   1      1     1        1       1     1     1      1       1         9
System Certifier                         1      1     1        1             1     1      1       1         8
Designated Authorizing Authority         1      1     1        1             1     1      1       1         8
Total Unreported                          7      8    7        7       3     8     7      8       8       63
Source: OIG Analysis
a
  See Exhibit B for full Operating Administration names.

Personnel in other job functions also have access to system level software and,
therefore, require specialized training. OIG IT management is in the process of
evaluating which OIG staff requires specialized security training. To date, it has
reported to the OCIO that at least 13 others, in addition to the three identified in
the table and the one reported earlier to OCIO, require some degree of specialized
training. As a result of not adequately identifying those employees with
significant security responsibilities and providing them with the required
specialized training, these employees may not have the correct skill set needed to
perform their security responsibilities. Consequently, Department information
systems are at risk of not appropriately securing the information and information
systems.


THE DEPARTMENT LACKS AN EFFECTIVE PROCESS TO
REMEDIATE INFORMATION SECURITY WEAKNESSES

FISMA requirements for agency information security programs include a process
for planning, implementing, evaluating, and documenting remedial actions to
address information security weaknesses. However, the department process is not
effective. Key concerns are weaknesses in management oversight and reporting of
open security weaknesses.
                                                                                                                                                                      10



Management Oversight Approach Is Ineffective

In February 2009, the DOT OCIO began meeting monthly with Operating
Administrations to address information security concerns. Despite these meetings,
the percentage of overdue items increased from 13 percent to 17 percent over the
past year. There were also a significant number of items that had been overdue for
more than one year––a total of 351 items. Almost 95 percent of these items came
from DOT Programs, FHWA, PHMSA, and STB (see Table 4).

Table 4: Summary of Overdue POA&Ms




                                                                                                                                                                Future Scheduled
                                                                                            121 days - 1 year




                                                                                                                                             Completion Date


                                                                                                                                                                Completion Date
                                                                                                                             Total Overdue
                                                                          91 - 120 days
                           Total Open




                                                         61 - 90 days
                                          1 - 60 days
                           POA&Ms




                                                                                                                                             No Target
                                                                                                                  > 1 yr
Operating
               a
Administration
DOT Programs                 69           0              0                0                 1                   64          65                      1                  3

FAA                      4,397          148             34              14                56                      9        261                      7          4,129

FHWA                       514          52               0                1               73                    89         215                      0           299

FMCSA                          3          0              0                0                 0                     2          2                      0                  1

FRA                          20         20               0                0                 0                     0         20                      0                  0

FTA                          50           5              7                0               23                      0         35                      0              15

MARAD                          0          0              0                0                 0                     0          0                      0                  0

NHTSA                          7          0              0                0                 0                     6          6                      0                  1

OIG                          18           2              2                2                 8                     0         14                      2                  2

OST                        149          10               0              127                 0                     0        137                      1              11

PHMSA                      128            0              0                0                 0                   128        128                      0                  0

RITA                         19           0              0                0                 0                     1          1                  18                     0

SLSDC                          1          0              0                0                 0                     0          0                      1                  0

STB                          67           0              0                0                 0                   52          52                  15                     0
Total                    5,442          237             43              144               161                   351        936                  45             4,461
Percentage                            4%        1%       3%                               3%                    6%         17%               1%                 82%
Source: DOT Open POA&Ms in CSAM as of July 15, 2009
a
  See Exhibit B for full Operating Administration names.

Operating Administrations did not meet Department requirements for addressing
security weaknesses. Specifically, Operating Administrations did not do the
following:
                                                                                                     11



• Assign a priority and the time for remediation within the allowed time
  constraints—high-priority (24 hours), moderate-priority (20 working days),
  and low-priority (about 3 months)—to 395 security weaknesses, 330 of which
  were for systems or programs categorized as "High" and "Moderate" to the
  mission of the Department.
• Establish target completion dates for 45 items or target completion dates within
  the maximum time allowed by policy for 2,635 out of 4,461 items. Of the
  2,635, 64 security weaknesses are not scheduled for remediation until 2015.
• Estimate costs needed to fix 2,393 items out 5,442.

In addition, Operating Administrations did not record all identified security
weaknesses in the plan of action and milestones (POA&M) database for 32 of the
45 systems that we selected for review this year. In particular, MARAD did not
input any known security weaknesses in the POA&M database.

Management Reporting Is Unreliable

We found significant discrepancies between the POA&M database and the
Security and Privacy Posture Summary Status Report, dated July 2, 2009, used by
the CIO office to monitor Operating Administrations’ progress in correcting
identified security weaknesses (see Table 5).

Table 5: OIG POA&M Data Analysis Comparison Results
                                            OCIO’s Report             POA&M           Difference
                                                                     Database
 Total number of open POA&Ms                          4,674              5,442                768
 POAMs not categorized                                  247                395                148
 Unidentified cost                                         0             2,393              2,393
Overdue POA&Ms                                            276                  936             660
Source: CIO‘s Security and Privacy Posture Summary Status Report dated July 2, 2009 and DOT Open
       POA&Ms in CSAM as of July 15, 2009

Without proper management of a compliant POA&M process, there is little
assurance that its systems are adequately secured and protected. Specifically,
without documenting security weaknesses, estimating cost, prioritizing risk, or
updating milestones such as scheduled completion dates to resolve or mitigate all
weaknesses, it is difficult or impossible for the Department and the Operating
Administrations to adequately prioritize and resolve open weaknesses. As a result,
weaknesses of lesser urgency may get resolved before critical ones. In addition,
allowing weaknesses to remain unaccounted, unresolved or unmitigated for
extended periods increases the risk that such vulnerabilities and exposures may be
exploited by intruders, or may otherwise compromise the confidentiality,
availability or integrity of systems and data.
                                                                                      12




SYSTEMS ARE NOT ADEQUATELY PROTECTED OR TESTED TO
ENSURE RECOVERY
The Department continues to lack an accurate and complete inventory of its
information systems and related interfaces and a process to ensure system owners
have complete information to approve systems. Without such information, DOT
cannot ensure its information systems are protected or can be recovered.

Specifically, DOT does not have an inventory of system interfaces, including 18 e-
Government initiatives, with external systems and could not provide security
agreements for interfaces. In addition, MARAD did not inventory systems
correctly and did not perform adequate security testing to ensure protection of
sensitive information. Of the 45 DOT systems reviewed, we found that half were
not appropriately certified and accredited, did not have tested contingency plans,
or both.

The Department’s Inventories of MARAD Systems and External
System Interfaces Are Not Comprehensive

FISMA requires agencies to develop, maintain, and annually update inventories of
the major information systems, including interfaces to external systems, that they
operate or control. These inventories are used to track agency systems for annual
testing and evaluation and contingency planning. As such, a complete and
accurate inventory of major information systems is the first step in managing the
agency’s information technology resources, including the security of those
resources. Further, OMB requires an Interconnection Security Agreement,
Memorandum of Understanding, or Memorandum of Agreement between systems
that share data and are owned or operated by different organizations.

DOT had no major weaknesses in accounting for its internal systems. However,
MARAD did not use an appropriate methodology to develop its system inventory.
MARAD classified 35 of its applications as minor and then proceeded to group
them into eight different systems for certification and accreditation. The systems
contained unrelated applications that did not comprise a system boundary suitable
for certification and accreditation. As a result of inappropriate system grouping,
component applications did not receive proper security review. For example, one
system had five applications; however, there is no evidence that two applications
were reviewed as part of the certification and accreditation process. Without a
well developed inventory, it is almost impossible to determine if system-level
controls are implemented or effective, or to track security metrics for systems. In
addition, as changes occur to systems, it is difficult to reassess system level
controls or to enforce security at the system level.
                                                                                                                     13



While the Department could generally account for its internal systems, it was
unable to provide a list of all interfaces with external systems. For example, 18 e-
Government initiatives, including e-Payroll and GovTrip, were not included in the
inventory. Also, the Department could not provide required security agreements
for those interfaces. Without an accurate inventory of interfaces, the Department
cannot ensure that the interfaces are being managed properly or that the
information transmitted over these interfaces is secured.

Certification and Accreditation and Contingency Plan Testing Are Not
Adequate

FISMA requires agencies to report on their certification and accreditation of
systems—a process to formally evaluate (certify) the management, operational,
and technical controls established in an information system’s security plan and
authorize (accredit) the systems for operation. However, DOT’s certification and
accreditation process does not provide complete information to support risk-based
decisions or ensure that security controls are updated or tested on a periodic basis.

Of the 45 DOT systems we reviewed, 25 were not compliant with the certification
and accreditation standards in NIST 800-37 (see Table 6). Specifically, Operating
Administrations were deficient in performing risk categorizations and
assessments, security control selection and testing, and contingency plan testing.
We also found that nine of the 45 systems (20 percent) did not test controls in the
last 12 months, as required by OMB. 8 In addition, 22 of the 45 did not have tested
contingency plans.

Incomplete or inadequate system security assessments may result in the approval
of operating systems that have risks. Such risks include exploitable vulnerabilities
that result from missing or weak controls and inadequate security planning. In
addition, without complete security and contingency testing, systems may be
operating with critical new or unresolved weaknesses and risk not being recovered
in time to minimize business disruption.




8
    OMB requires agencies to test a subset of the security controls annually—as part of its continuous monitoring—
    subsequent to the initial authorization of the information system.
                                                                                                                             14



Table 6: Sample Systems Results Summary by Operating
Administration




                                                                               MARAD




                                                                                                     PHMSA
                                                           FMCSA




                                                                                       NHTSA
                                                    FHWA




                                                                                                                     Total
                                                                                                             RITA
                                             FAA




                                                                   FRA




                                                                                               OST
                                                                         FTA
Number of Systems
                                           28      1       3       1     2     1       1       6     1       1      45
Sampled
Systems without Fully
                                           22      0       0       0     0     1       0       2     0       0      25
Compliant C&As
Systems without Annual
                                            5      0       2       0     0     1       1       0     0       0       9
Testing
Systems without Tested
                                           16      1       0       1     0     1       0       2     1       0      22
Contingency Plans
Source. OIG Analysis
a
  See Exhibit B for full Operating Administration names.



PRIVACY PROTECTION PROGRAM STILL NOT MEETING OMB
REQUIREMENTS

While the Department has made some progress in completing OMB privacy
protection requirements, it lacks a reliable count of systems that are privacy
related and did not complete privacy impact assessments for at least 40 percent of
these systems. In addition, DOT has not implemented key privacy initiatives,
including reducing the use of SSNs—a process which OMB required to be
completed by November 2009—and using appropriate authentication or
encryption for controlling remote access to its networks.

Count of Systems Containing Privacy Information Is Unreliable and
Privacy Impact Analyses Are Incomplete

OMB policy established criteria and instructions for agencies to manage systems
containing privacy information. Specifically, OMB policy requires agencies to (1)
conduct privacy impact assessments for electronic information systems that collect
identifiable information, (2) report annually to OMB on compliance with section
208 of the E-Government Act of 2002 9, and (3) submit completed assessments to
OMB no later than October 3, 2003.

According to the Security and Privacy Posture Summary Status Report, DOT has
not completed privacy impact assessments for at least 40 percent of the systems
that require one (48 of 116)—almost six years after they were required. Without

9
    OMB requires agencies to address information technology systems or information collections for which PIAs were
    conducted, persistent tracking technology uses, agency achievement of goals for machine readability, and contact
    information of the person responsible for privacy policies.
                                                                                                           15



completing all privacy impact assessments, the Department cannot fully ensure
that private information collected is only used for its intended purpose and is not
disseminated without individual consent and knowledge.

Conducting the assessments is problematic in part because DOT lacks an accurate
count of its privacy systems. Last year, the Department reported that 109 systems
contained PII. In September 2009, 140 systems in the Department’s security
database were identified as containing PII. However, the Security and Privacy
Posture Summary Status Report showed a count of 201 PII systems, a discrepancy
of about 60 systems. Without a valid inventory of systems that have privacy
information, the agency has little assurance in the integrity of the privacy
information reported or the confidentiality of PII contained in systems that may be
missing from the inventory.

The Department Has Not Implemented Key Privacy Initiatives

The Department has also failed to fully implement three key OMB requirements to
safeguard privacy-related information: reduce the use of SSNs, employ two-factor
authentication, and encrypt mobile devices that contain PII (see Table 7). As a
result, the Department cannot ensure that all PII is properly protected or minimize
the risks that SSNs are exposed to parties who do not have a legitimate need to
know or possess them.

Table 7: DOT Implementation of OMB Privacy Initiatives

    OMB Initiative                             Status
    Complete SSN reduction and PII              DOT identified 25 systems that can reduce
    volume reduction.                           use of SSNs. Only 5 systems have
                                                completed a plan to do so. In addition, FAA
                                                does not plan to eliminate unnecessary use
                                                of SSNs until 2015.
    Allow remote access only with two-          Two-factor authentication delayed until DOT
    factor authentication where one of          implements Homeland Security Presidential
    the factors is provided by a device         Directive 12.
    separate from the computer gaining
    access.
    Ensure that all PII data stored or          As of July 2, 2009, 592 out of 11,723 mobile
    carried on mobile computers/                devices from the Department have not had
    devices is encrypted using NIST-            NIST approved encryption applied. (No data
    approved encryption.                        were available for FAA and FHWAa)
So ur c e: OI G An al ys i s
a
 OMB requires encryption on any device used to store information that can be physically transported
 outside of the agency’s secured, physical perimeter (this includes information transported on removable
 media and on portable/mobile devices such as laptop computers and/or personal digital assistants).
                                                                                         16



CONCLUSION

This past year DOT made progress in establishing an effective information
security program by issuing overdue information security policies. These policies
will serve as the starting point to improve DOT’s information security program.
However, because most DOT systems are owned and managed by the Operating
Administrations, ensuring proper implementation and execution of these security
policies will require strong leadership, greater influence, and oversight by the
DOT OCIO, and management commitment from Operating Administration
Administrators to achieve a mature information security program that is
sustainable. Until DOT addresses known weaknesses in its program, it will
remain vulnerable to unauthorized and potentially malicious parties.


RECOMMENDATIONS

Recognizing the challenges to develop a mature information security program
from what DOT has currently in place, we are providing a number of actions that
may serve as a roadmap to address urgent vulnerabilities currently inherent in the
program. To mitigate these weaknesses and enable DOT’s information security
program evolution towards an appropriate level of maturity, we recommend that
the Chief Information Officer do the following:

Information Security Policy:

1.   Revise the incident response policy to identify conditions under which
     incidents should be reported to law enforcement (i.e., OIG), how the
     reporting should be performed, what evidence should be collected, and how it
     should be collected.
2.   Revise the plan of action and milestones policy to address all the OMB
     requirements, including description of weakness, scheduled completion date,
     key milestones, changes to milestones, source of the weakness, and status.
3.   Revise the security awareness and training policy to include the identification
     of all users, such as employees, contractors, and others requiring access to
     DOT information systems. Include provisions in the policy to separate these
     active user accounts from the non-person accounts.
4.   Revise training policy to list the job functions that require specialized
     security training and the type of specialized training that is required for those
     job functions as described in NIST SP 800-16.
5.   Revise policy to address security of information and information systems
     managed by contractors, including information security roles and
     responsibilities, security control baselines and rules for departures from
     baseline, and rules of behavior for contractors and minimum repercussions
     for noncompliance.
                                                                                            17



6.    Revise the interface agreement policy to incorporate necessary elements,
      such as purpose of the interconnection, description of security controls,
      schematic of interconnection, timelines for terminating or reauthorizing the
      interconnection, and authority of establishing the interconnection.

Enterprise-Level Weaknesses:

7.    Ensure that the Federal Aviation Administration, Saint Lawrence Seaway
      Development Corporation, and Pipeline and Hazardous Materials Safety
      Administration have deployed DOT approved configuration baselines and
      tools to assess implementation status.
8.    Use automated tools to periodically verify status of completion reported by
      Operating Administrations and identify deviations from the approved
      baseline configurations.
9.    Require Operating Administrations to manage identified deviations from
      approved baseline configurations by tracking and resolving significant
      baseline configuration weaknesses in plan of actions and milestones.
10.   Work with Operating Administration Chief Information Officers to ensure
      that all new IT contracts include the acquisition language on common
      security configurations as required by DOT and OMB M-07-18.
11.   Work with the CSMC to develop a process to ensure that all Department of
      Homeland Security reference numbers are received and entered into the DOT
      tracking system for confirmation.
12.   Develop and establish a tracking system that effectively and routinely
      accounts for all active contractors requiring security awareness training.
13.   Develop a mechanism to enforce that all employees including contractors
      with login privileges have completed the required annual security awareness
      training in order to gain and maintain access to Department information
      systems.
14.   Identify and ensure all employees with significant security responsibilities
      take the necessary specialized security training to fulfill their responsibilities.

Management of Security Weaknesses:

15. Monitor, and report to the Deputy Secretary, Operating Administrations’
    progress in resolving long overdue security weaknesses, reestablishing target
    completion dates in accordance with departmental policy, providing cost
    estimation for fixing security weaknesses, prioritizing weaknesses, and
    recording all identified security weaknesses in plan of actions and milestones.
16. Ensure accurate information is used to monitor Operating Administrations’
    progress in correcting security weaknesses.
                                                                                     18



Information System Security:

17. Require Chief Information Security Officer and Operating Administrations
    conduct a review to identify all interfaces with systems external to the
    Department, ensure related security agreements are adequate, and track them
    in the Cyber Security Assessment and Management system.
18. Ensure that Maritime Administration properly inventories its information
    systems and tracks them in the Cyber Security Assessment and Management
    system.
19. Ensure that Maritime Administration certifies and accredits each system in
    the revised inventory.
20. Improve its quality assurance checks on the Operating Administrations’
    certifications and accreditations by increasing the frequency and scope of its
    checks, communicating results and expected actions to the Operating
    Administrations, requiring updated plan of actions and milestones to address
    weaknesses noted (including those found in the Inspector General reviews),
    and follow-up on resolution of weaknesses noted.
21. Require Federal Aviation Administration, Federal Highway Administration,
    Federal Railroad Administration, Maritime Administration, Office of the
    Secretary of Transportation and Pipelines and Hazardous Materials Safety
    Administration to conduct system contingency testing of the systems that did
    not have evidence that of such tests.
22. Develop a process to ensure Operating Administrations continuously monitor
    and test information system security controls.

Privacy Program:

23. Finalize the inventory count for systems containing privacy information.
24. Work with Operating Administrations to complete privacy impact
    assessments for applicable information systems.
25. Work with the Federal Aviation Administration to establish a reasonable
    target date for the completion of the reduction of social security numbers
    recorded in its systems.
26. Implement 2-factor authentication for remote access.
27. Implement NIST-approved encryption on all mobile computers/devices.
                                                                                       19



MANAGEMENT COMMENTS

A draft of this report was provided to the Department’s CIO on November 9,
2009. On November 16, 2009, we received the Department CIO’s response,
which can be found in its entirety in the Appendix. The CIO generally concurred
with our findings and recommendations and will provide, in 30 days, written
comments describing the specific actions and milestones that will be taken to
implement the recommendations.

ACTIONS REQUIRED

We will review the Chief Information Officer’s detailed action plans to determine
whether they satisfy the intent of our recommendations. All corrections are
subject to follow-up provisions in DOT Order 8000.1.C. We appreciate the
courtesies and cooperation of the CIO Office and the Operating Administrations’
representatives during this audit. If you have any questions concerning this report,
please call me at (202) 366-1959; Ann Calvaresi-Barr, Principal Assistant
Inspector General for Auditing and Evaluation, at (202) 366-1427; or Rebecca C.
Leng, Assistant Inspector General for Financial and Information Technology
Audits, at (202) 366-1407.



cc: Deputy Secretary
    Assistant Secretary for Budget and Programs/Chief Financial Officer
    CIO Council Members
    Martin Gertel, M-1
                                                                                        20



EXHIBIT A. Scope and Methodology

The Federal Information Security Management Act of 2002 (FISMA) requires that
we perform an independent evaluation to determine the effectiveness of the
Department’s information security program and practices. FISMA further requires
that our evaluation include testing of a representative subset of systems and an
assessment, based on our testing, of the Department’s compliance with FISMA
and applicable requirements. On August 20, 2009, the Office of Management and
Budget (OMB) issued M-09-29, FY 2009 Reporting Instructions for the Federal
Information Security Management Act and Agency Privacy Management, which
provides instructions for inspectors general for completing their FISMA
evaluations and the required OMB template. For 2009, OMB has required the use
of a common Web portal to upload its required metrics—a significant number of
which have changed.

To meet FISMA and OMB requirements, we selected a representative subset of 45
departmental systems (see Table 8) and reviewed the compliance of these systems
with NIST and OMB requirements in the areas of risk categorization, security
plans, annual control testing, contingency planning, certification and accreditation,
incident handling, and plans of actions and milestones. We also conducted testing
to assess the Department’s inventory, its overall process of resolving information
security weaknesses, certain privacy requirements, configuration management,
incident reporting, security-awareness training, and peer-to-peer file sharing. Our
tests included analysis of data contained in the Department’s Cyber Security
Assessment and Management system, reviews of supporting documentation, and
interviews with departmental officials. We also used commercial scanning
software to assess compliance with Federal Desktop Core Configuration
requirements.

Table 8. OIG’s Representative Subset of DOT Systems
 Operating                                                  Impact      Contractor
 Administration System                                       Level       System?
                Accident/Incident & Enforcement
 FAA            Query Tool (AIE)                           Moderate         No
 FAA            ASH HQ LAN                                 Moderate         No
 FAA            ASH LANS                                   Moderate         No
 FAA            ATO Consolidated LAN                         Low            No
 FAA            ATO Network                                Moderate         No
                Aviation Safety Information Analysis
 FAA            and Sharing (ASIAS) System                 Moderate         No
                Capability and Architecture Tool Suite
 FAA            (CATS-I)                                      Low           No
                Collaborative Routing Coordination
 FAA            Tool (CRCT)                                   Low           No

Exhibit A. Scope and Methodology
                                                                                 21



 Operating                                                Impact    Contractor
 Administration System                                     Level     System?
 FAA            Delphi Tracking System (DTF)             Moderate      No
                Eastern Region Office of Government
 FAA            Ethics – 450 (OGE-450)                   Moderate      No
                Enterprise Architecture Portal (EAP)
 FAA            Metadata Repository                        Low         No
                Excellence through Quality Reliance
 FAA            (EtQ)                                    Moderate      No
                Flight Service for the 21st Century
 FAA            (FS21)                                   Moderate      No
                Flight Systems Laboratory Software
 FAA            Tool Set (FSL Tools)                       Low         No
                Information Technology Asset
 FAA            Management System (ITAMS)                  Low         No
                Integrated Rulemaking Management
 FAA            Information System (IRMIS)                 High        No
                Monitor Safety Related Data / Aviation
                Safety Accident Prevention Program
 FAA            (MSRD/ASAP)                              Moderate      No
                NADIN Message Switch Rehost
 FAA            (NMR)                                    Moderate      No
                National Airspace System Technical
 FAA            Evaluation Program (NASTEP)                Low         No
                Office of Airports Local Area Networks
 FAA            (ARP LANS)                               Moderate      No
                Operations Specifications Sub-System
 FAA            (OPSS)                                    High         No
 FAA            Payback                                  Moderate      No
                Risk Based Resource Targeting
 FAA            (RBRT)                                   Moderate      No
                Safety Program Notification System
 FAA            (SPANS)                                  Moderate      No
                Selections Within Faster Times
 FAA            (SWIFT)                                  Moderate      No
                Staffing and Cost Analysis Tool
 FAA            (SCAT)                                   Moderate      No
                Voice Switching and Control System
 FAA            (VSCS)                                   Moderate      No
                Whistleblower Protection Program
 FAA            (WBPP)                                     High        No
                Delphi Interface Maintenance System
 FHWA           (DIMS)                                     High        No
                Commercial Vehicle Information
                Systems & Networks (CVISN) Web
 FMCSA          Site                                       Low         No
 FMCSA          COMPASS                                  Moderate      No
 FMCSA          Gotham                                   Moderate      No
 FRA            Railroad Credit Risk Assessment            Low         No
 FTA            FTA Inter/Intranet                       Moderate      Yes
Exhibit A. Scope and Methodology
                                                                                    22



 Operating                                                  Impact    Contractor
 Administration        System                                Level     System?
 FTA                   National Transit Database (NTD)     Moderate      Yes
 MARAD                 Enclave 1                              Low        No
 NHTSA                 Support Delivery Services           Moderate      No
 OST                   Case Tracking System (CTS)          Moderate      No
                       Correspondence Control Management
 OST                   System (CCMS)                       Moderate      No
 OST                   Grant Information System (GIS)        Low         Yes
 OST                   Security Operations Systems          High         Yes
                       Transportation Integrated Print
 OST                   Transaction System (TIPTS)            Low         Yes
                       Workman Compensation Information
 OST                   System (WCIS)                       Moderate      No
 PHMSA                 NPMS                                  Low         Yes
 RITA                  Volpe Center PRISM System           Moderate      Yes
Source: OIG
a
  See Exhibit B for full Operating Administration names.

As required, we submitted to OMB key security metrics and qualitative
assessments pertaining to DOT’s information security program and practices.
OMB requires that our FISMA submission include information from all DOT
Operating Administrations, including OIG. For 2009, OMB changed a number of
security metrics and assessments, and mandated the use of the Web-based
CyberScope system to input our FISMA results. In addition to preparing our
submission, we reviewed the Department’s progress in resolving weakness
identified in our prior year’s FISMA report.

We performed our information security review work between February 2009 and
September 2009. We conducted our work at departmental and Operating
Administration Headquarters offices in the Washington, D.C., area. We conducted
our audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.

Previous audit reports on the Department’s information security program issued in
response to the FISMA legislative mandate (formerly the Government Information
Security Reform Act) include:

DOT Information Security Program, FI-2009-003, October 8, 2008;
DOT Information Security Program, FI-2008-001, October 10, 2007;
DOT Information Security Program, FI-2007-002, October 23, 2006;

Exhibit A. Scope and Methodology
                                                                         23



DOT Information Security Program, FI-2006-002, October 7, 2005;
DOT Information Security Program, FI-2005-001, October 1, 2004;
DOT Information Security Program, FI-2003-086, September 25, 2003;
DOT Information Security Program, FI-2002-115, September 27, 2002; and
DOT Information Security Program, FI-2001-090, September 7, 2001.




Exhibit A. Scope and Methodology
                                                                                24



EXHIBIT B. DOT OPERATING ADMINISTRATIONS AND SYSTEM
INVENTORY COUNTS

 Operating Administration                                   FY 2009   FY 2008
 Federal Aviation Administration (FAA)                         274        264
 Federal Highway Administration (FHWA)                          21         26
 Federal Motor Carrier Safety Administration (FMCSA)            21         23
 Federal Railroad Administration (FRA)                          12         21
 Federal Transit Administration (FTA)                            5          5
 Maritime Administration (MARAD)                                10         13
 National Highway Traffic Safety Administration (NHTSA)         10         11
 Office of Inspector General (OIG)                               2          2
 Office of the Secretary (OST)                                  36         44
 Pipeline and Hazardous Materials Safety Administration
                                                                 5         4
 (PHMSA)
 Research and Innovative Technology Administration (RITA)       10         9
 Saint Lawrence Seaway Development Corporation (SLSDC)           1         1
 Surface Transportation Board (STB)                              2         2
     Total Systems                                             409       425
Source: OIG, and DOT CSAM as of July 6, 2009




Exhibit B. DOT Operating Administrations and System Inventory
Counts
                                                                        25



EXHIBIT C. Status of Prior Year’s Recommendations

  FY 2008 FISMA         FY 2008 Recommendation                 Status
      Report
 Recommendation
     Number
                  Provide information security
                  performance metrics to be included in
                  Operating Administration CIOs’
       1          performance standards and                   CLOSED
                  subsequently provide input on their
                  performance in addressing these
                  metrics.
                  Develop and issue comprehensive,
                  compliant information security policies
       2                                                      CLOSED
                  and procedures as required by FISMA,
                  OMB, and NIST.
                  Complete review of its draft breach-
                  notification policy, perform revisions as
       3          necessary to conform to OMB                 CLOSED
                  requirements, and issue an official
                  breach-notification policy.
                  Review and finalize its plan to reduce
                  Social Security numbers, and
       4          implement the reduction of Social           OPEN
                  Security numbers in the time frame set
                  forth by OMB.
                  Issue a policy outlining the rules of
                  behavior and identifying consequences
       5                                                      CLOSED
                  and corrective actions available for
                  failure to protect privacy.
                  Establish a departmentwide internal
                  FISMA cut-off date that allows sufficient
                  time for the Department to conduct
                  meaningful internal review, which
       6                                                      CLOSED
                  includes evaluating the accuracy of the
                  data it includes in its FISMA report as
                  well as time to resolve any potential
                  disputes with the OIG.
                  Maintain an adequate audit trail of data
       7          supporting FISMA reports as of the          CLOSED
                  selected cut-off date.
                  Assign a priority to finalizing the DOT
       8                                                      CLOSED
                  configuration management policy.




Exhibit C. Status of Prior Year’s Recommendations
                                                                       26



  FY 2008 FISMA         FY 2008 Recommendation                Status
      Report
 Recommendation
     Number
                  Require Operating Administrations to
                  periodically report status of baseline
                  configuration compliance and
       9                                                     CLOSED
                  independently validate compliance
                  status reported by Operating
                  Administrations.
                  Implement NIST Federal Desktop Core
                  Configuration settings on the Window
                  XP workstations on the DOT Common
                  Operating Environment, require
                  Operating Administrations to implement
       10                                                    CLOSED
                  Federal Desktop Core Configuration
                  settings on Operating Administrations’
                  Windows XP workstations, and
                  document any required deviations from
                  those settings.
                  Establish a timetable for Operating
                  Administrations to work with CSMC to
       11                                                    CLOSED
                  deploy monitoring devices covering all
                  DOT critical networks
                  Enforce Operating Administrations’
                  reporting of PII-related security
       12                                                    CLOSED
                  incidents to CSMC immediately upon
                  discovery, as specified in DOT policy.
                  Revised DOT policies to meet the OMB
       13                                                    CLOSED
                  requirement for reporting PII incidents.
                  Implement procedures for Operating
       14         Administrations to take timely remedial    CLOSED
                  action for identified incidents.
                  Direct CSMC and Operating
                  Administrations to work together to
                  collect and share the information
       15                                                    CLOSED
                  needed for cyber incident-response
                  reporting, such as IP-address
                  assignment and critical logging data.
                  Enforce the requirements for all
                  employees and contractors to take
       16         security-awareness training in order to    CLOSED*
                  gain and maintain access to
                  Department systems.
                  Establish a tracking system or other
                  process that effectively and routinely
       17                                                    CLOSED*
                  accounts for all active contractors
                  requiring security training.




Exhibit C. Status of Prior Year’s Recommendations
                                                                                                 27



  FY 2008 FISMA                   FY 2008 Recommendation                              Status
      Report
 Recommendation
     Number
                           Establish a mechanism to identify and
           18              train employees and contractors                         CLOSED*
                           requiring specialized security training.
                           Include collaborative Web technologies
           19              in the Department’s required security-                    OPEN
                           awareness training.
                           Ensure that all weaknesses that are
                           identified during reviews, including
           20              certification and accreditation, and that               CLOSED*
                           require remediation, are tracked in the
                           Department’s POA&M system.
                           Establish adequate policies for
           21              timeliness of remediation and enforce                    CLOSED
                           such policies.
                           Require that all identified weaknesses
                           include a cost estimate and that these
           22              estimates, along with the severity of the                CLOSED
                           weakness, be used to prioritize these
                           weaknesses for correction.
                           Implement a process to ensure that all
                           departmental systems that require e-
                           authentication are identified in the e-
           23              authentication system inventory and                      CLOSED
                           that the necessary e-authentication
                           supporting documentation is obtained or
                           developed for these systems.
                           Ensure that all systems that require e-
                           authentication have certification and
                           accreditation packages that include
           24                                                                       CLOSED
                           support for e-authentication in the
                           appropriate sections of their system
                           security plans and risk assessments.
                           Validate that e-authentication systems
           25              have operationally achieved the                           OPEN
                           required assurance level.
                           Require development and appropriate
                           annual testing of system contingency
                           plans and ensure that tested
           26                                                                      CLOSED*
                           contingency plans are updated based
                           on the results of the contingency plan
                           tests performed, and
                           Enforce certification and accreditation
           27              requirements uniformly throughout the                    CLOSED
                           Department.
Source: OIG
*New recommendations were made in this year’s audit to continue addressing these deficiencies.


Exhibit C. Status of Prior Year’s Recommendations
                                                                   28



EXHIBIT D. MAJOR CONTRIBUTORS TO THIS REPORT
Name                               Title

Louis C. King                      Program Director
Dr. Ping Z. Sun                    Program Director for IT Audit
                                   Computer Laboratory
Michael Marshlick                  Project Manager
Lissette Mercado                   Project Manager
Karen Sloan                        Communications Officer
Atul Darooka                       Information Technology
                                   Specialist
Martha Morrobel                    Information Technology
                                   Specialist
Ann Moles                          Information Technology
                                   Specialist
Anthony Cincotta                   Information Technology
                                   Specialist
Vasily Gerasimov                   Information Technology
                                   Specialist




Exhibit D. Major Contributors to this Report
                                 29


 APPENDIX. MANAGEMENT COMMENTS




Appendix. Management Comments
                                30




Appendix. Management Comments
                                                                                               31



Year 2009 Audit of Department of Transportation’s Information Security Program
                             and Practice Report

                          Section 508 Compliant Presentation



Table 1 depicted in the Fiscal Year 2009 Audit of Department of Transportation’s
Information Security Program and Practices Report on page 5 titled “Examples of
Information Security Policy Deficiencies by Program Area.”

This table presents the Department of Transportation’s policies that lacked critical
elements to effectively and adequately guide the agency’s information security program
or address key Office of Management and Budget privacy requirements.

The following presents the status of Information Security Policy Deficiencies by Program
Area.

Functional Description, Program Area, Incident Reporting, defined as detecting,
reporting, and responding to security incidents, including notifying law enforcement
agencies and relevant Offices of Inspector General. Office of Inspector General Policy
Evaluation, the policy does not document the requirement to report incidents to law
enforcement and the Office of Inspector General as required by the Federal Information
Security Management Act and the Office of Management and Budget.

Functional Description, Program Area, Plans of Action and Milestones, used to track the
measures implemented to correct deficiencies and to reduce or eliminate known
vulnerabilities. Office of Inspector General Policy Evaluation, the policy does not
specifically identify the required data elements to properly document and report on
information systems’ or programs’ security weaknesses throughout the lifecycle as
required by the Office of Management and Budget. Such information includes:
Description of Weaknesses, Scheduled Completion Date, Key Milestones with
Completion Dates, Milestone Changes, Source (for example, program review, IG audit,
GAO audit, etcetera.), and Status.

Functional Description, Program Area, Security Training, defined as disseminating
security information that the workforce, both employees and contractors, need to do their
job. OIG Policy Evaluation, the policy did not address the identification of users with
login privileges to the Department information systems. In addition, it does not identify
specific job functions that require specialized security training, such as Chief Information
Officer, Information System Security Officer, Database Administrator, etcetera.
                                                                                           32



Functional Description, Program Area, Contractor Oversight, defined as monitoring the
effectiveness of the information security for information and information systems that
support the operations and assets of the agency, including those provided or managed by
another agency, contractor, or other source. Office of Inspector General Policy
Evaluation, the policy did not contain contractor oversight provisions that would ensure
that proper security for the contracted information and systems are in adherence with
National Institute of Standards and Technology, Office of Management and Budget, and
Federal Information Security Management Act requirements.

Functional Description, Program Area, External Interfaces, defined as enforcing System
Interconnection/Information Sharing and Interconnection Security Agreement,
Memorandum of Understanding, or Memorandum of Agreement between systems that
share data that are owned or operated by different organizations. Office of Inspector
General Policy Evaluation, the policy does not provide any guidance on the preparation
of these critical interface agreements nor does it address key elements of National
Institute of Standards and Technology guidance.


Table 2 depicted in the Fiscal Year 2009 Audit of Department of Transportation’s
Information Security Program and Practices Report on page 7 titled “Summary of
Incidents Missing United States Computer Emergency Readiness Team Reference
Numbers.”

This table presents the number of security incidents which did not have a United States
Computer Emergency Readiness Team reference numbers for each incident category
type.

Incidents Missing Reference Numbers, Category 1, Unauthorized Access (for example,
Personally Identifiable Information Breach), 107, Percentage, 14.

Incidents Missing Reference Numbers, Category 2, Denial of Service, 0, Percentage, 0.

Incidents Missing Reference Numbers, Category 3, Malicious Code, 393, Percentage, 53.

Incidents Missing Reference Numbers, Category 4, Improper Usage, 170, Percentage, 23.

Incidents Missing Reference Numbers, Category 5, Scans, Probes, Attempted Access, 73,
Percentage, 10.

Incidents Missing Reference Numbers, Total Security Incidents, 743, Percentage 100.
                                                                                           33



Table 3, depicted in the Fiscal Year 2009 Audit of Department of Transportation’s
Information Security Program and Practices Report, on page 9, titled “Unreported Job
Functions and Estimated Employees Requiring Specialized Training.”

This table presents the number of estimated employees, grouped by job function and
Operating Administration, that should have taken specialized training, but did not.

Chief Information Officer, Federal Railroad Administration, 1, Federal Transit
Administration, 1, Maritime Administration, 1, National Highway Traffic Safety
Administration, 1, Office of Inspector General, 1, Office of the Secretary, 1, Research
and Innovative Technology Administration, 1, Saint Lawrence Seaway Development
Corporation, 1, Surface Transportation Board, 1, Total Unreported, 9.

Information System Security Officer or Information System Security Manager, Federal
Transit Administration, 1, Office of the Secretary, 1, Saint Lawrence Seaway
Development Corporation, 1, Surface Transportation Board, 1, Total Unreported, 4.

System Administrator, Federal Railroad Administration, 1, Federal Transit
Administration, 1, Maritime Administration, 1, National Highway Traffic Safety
Administration, 1, Office of the Secretary, 1, Research and Innovative Technology
Administration, 1, Saint Lawrence Seaway Development Corporation, 1, Surface
Transportation Board, 1, Total Unreported, 8.

System Designer and Developers, Federal Railroad Administration, 1, Federal Transit
Administration, 1, Maritime Administration, 1, National Highway Traffic Safety
Administration, 1, Office of Inspector General, 1, Office of the Secretary, 1, Research
and Innovative Technology Administration, 1, Saint Lawrence Seaway Development
Corporation, 1, Surface Transportation Board, 1, Total Unreported, 9.

Network Administrator, Federal Railroad Administration, 1, Federal Transit
Administration, 1, Maritime Administration, 1, National Highway Traffic Safety
Administration, 1, Office of the Secretary, 1, Research and Innovative Technology
Administration, 1, Saint Lawrence Seaway Development Corporation, 1, Surface
Transportation Board, 1, Total Unreported, 8.

Database Administrator, Federal Railroad Administration, 1, Federal Transit
Administration, 1, Maritime Administration, 1, National Highway Traffic Safety
Administration, 1, Office of Inspector General, 1, Office of the Secretary, 1, Research
and Innovative Technology Administration, 1, Saint Lawrence Seaway Development
Corporation, 1, Surface Transportation Board, 1, Total Unreported, 9.

System Certifier, Federal Railroad Administration, 1, Federal Transit Administration, 1,
Maritime Administration, 1, National Highway Traffic Safety Administration, 1, Office
                                                                                           34



of the Secretary, 1, Research and Innovative Technology Administration, 1, Saint
Lawrence Seaway Development Corporation, 1, Surface Transportation Board, 1, Total
Unreported, 8.

Designated Authorizing Authority, Federal Railroad Administration, 1, Federal Transit
Administration, 1, Maritime Administration, 1, National Highway Traffic Safety
Administration, 1, Office of the Secretary, 1, Research and Innovative Technology
Administration, 1, Saint Lawrence Seaway Development Corporation, 1, Surface
Transportation Board, 1, Total Unreported, 8.

Total Unreported, Federal Railroad Administration, 7, Federal Transit Administration, 8,
Maritime Administration, 7, National Highway Traffic Safety Administration, 7, Office
of Inspector General, 3, Office of the Secretary, 8, Research and Innovative Technology
Administration, 7, Saint Lawrence Seaway Development Corporation, 8, Surface
Transportation Board, 8, Total Unreported, 63.

Table 4, depicted in the Fiscal Year 2009 Audit of Department of Transportation’s
Information Security Program and Practices Report, on page 10, titled “Summary of
Overdue Plan of Action and Milestones.”

This table presents the number of Open Plan of Action and Milestones for each Operating
Administration and a breakdown how long overdue they are, how many did not have
target completion dates, and how many had future scheduled completion dates.

DOT Programs, Total Plan of Action of Milestones, 69, 1 to 60 days overdue, 0, 61 to 90
days overdue, 0, 91 to 120 days overdue, 0, 121 to 1 year overdue, 1, more than a year
overdue, 64, Total Overdue, 65, No Target Completion Date, 1, Future Scheduled
Completion Date, 3.

Federal Aviation Administration, Total Plan of Action of Milestones, 4397, 1 to 60 days
overdue, 148, 61 to 90 days overdue, 34, 91 to 120 days overdue, 14, 121 to 1 year
overdue, 56, more than a year overdue, 9, Total Overdue, 261, No Target Completion
Date, 7, Future Scheduled Completion Date, 4129.

Federal Highway Administration, Total Plan of Action of Milestones, 514, 1 to 60 days
overdue, 52, 61 to 90 days overdue, 0, 91 to 120 days overdue, 1, 121 to 1 year overdue,
73, more than a year overdue, 89, Total Overdue, 215, No Target Completion Date, 0,
Future Scheduled Completion Date, 299.

Federal Motor Carrier Safety Administration, Total Plan of Action of Milestones, 3, 1 to
60 days overdue, 0, 61 to 90 days overdue, 0, 91 to 120 days overdue, 0, 121 to 1 year
overdue, 0, more than a year overdue, 2, Total Overdue, 2, No Target Completion Date,
0, Future Scheduled Completion Date, 1.
                                                                                             35




Federal Railroad Administration, Total Plan of Action of Milestones, 20, 1 to 60 days
overdue, 20, 61 to 90 days overdue, 0, 91 to 120 days overdue, 0, 121 to 1 year overdue,
0, more than a year overdue, 0, Total Overdue, 20, No Target Completion Date, 0, Future
Scheduled Completion Date, 0.

Federal Transit Administration, Total Plan of Action of Milestones, 50, 1 to 60 days
overdue, 5, 61 to 90 days overdue, 7, 91 to 120 days overdue, 0, 121 to 1 year overdue,
23, more than a year overdue, 0, Total Overdue, 35, No Target Completion Date, 0,
Future Scheduled Completion Date, 15.

Maritime Administration, Total Plan of Action of Milestones, 0, 1 to 60 days overdue, 0,
61 to 90 days overdue, 0, 91 to 120 days overdue, 0, 121 to 1 year overdue, 0, more than
a year overdue, 0, Total Overdue, 0, No Target Completion Date, 0, Future Scheduled
Completion Date, 0.

National Highway Traffic Safety Administration, Total Plan of Action of Milestones, 7, 1
to 60 days overdue, 0, 61 to 90 days overdue, 0, 91 to 120 days overdue, 0, 121 to 1 year
overdue, 0, more than a year overdue, 6, Total Overdue, 6, No Target Completion Date,
0, Future Scheduled Completion Date, 1.

Office of Inspector General, Total Plan of Action of Milestones, 18, 1 to 60 days
overdue, 2, 61 to 90 days overdue, 2, 91 to 120 days overdue, 2, 121 to 1 year overdue, 8,
more than a year overdue, 0, Total Overdue, 14, No Target Completion Date, 2, Future
Scheduled Completion Date, 2.

Office of the Secretary, Total Plan of Action of Milestones, 149, 1 to 60 days overdue,
10, 61 to 90 days overdue, 0, 91 to 120 days overdue, 127, 121 to 1 year overdue, 0, more
than a year overdue, 0, Total Overdue, 137, No Target Completion Date, 1, Future
Scheduled Completion Date, 11.

Pipeline and Hazardous Materials Safety Administration, Total Plan of Action of
Milestones, 128, 1 to 60 days overdue, 0, 61 to 90 days overdue, 0, 91 to 120 days
overdue, 0, 121 to 1 year overdue, 0, more than a year overdue, 128, Total Overdue, 128,
No Target Completion Date, 0, Future Scheduled Completion Date, 0.

Research and Innovative Technology Administration, Total Plan of Action of Milestones,
19, 1 to 60 days overdue, 0, 61 to 90 days overdue, 0, 91 to 120 days overdue, 0, 121 to 1
year overdue, 0, more than a year overdue, 1, Total Overdue, 1, No Target Completion
Date, 18, Future Scheduled Completion Date, 0.

Saint Lawrence Seaway Development Corporation, Total Plan of Action of Milestones, 1,
1 to 60 days overdue, 0, 61 to 90 days overdue, 0, 91 to 120 days overdue, 0, 121 to 1
                                                                                             36



year overdue, 0, more than a year overdue, 0, Total Overdue, 0, No Target Completion
Date, 1, Future Scheduled Completion Date, 0.

Surface Transportation Board, Total Plan of Action of Milestones, 67, 1 to 60 days
overdue, 0, 61 to 90 days overdue, 0, 91 to 120 days overdue, 0, 121 to 1 year overdue, 0,
more than a year overdue, 52, Total Overdue, 52, No Target Completion Date, 15, Future
Scheduled Completion Date, 0.

Total, Total Plan of Action of Milestones, 5442, 1 to 60 days overdue, 237, Percentage, 4,
61 to 90 days overdue, 43, Percentage, 1, 91 to 120 days overdue, 144, Percentage, 3, 121
to 1 year overdue, 161, Percentage, 3, more than a year overdue, 351, Percentage, 6,
Total Overdue, 936, Percentage, 17, No Target Completion Date, 45, Percentage, 1,
Future Scheduled Completion Date, 4461, Percentage, 82.

Table 5, depicted in the Fiscal Year 2009 Audit of Department of Transportation’s
Information Security Program and Practices Report, on page 11, titled “OIG Plan of
Action and Milestone Data Analysis Comparison Results.”

This table presents the discrepancies found between the Plan of Action and Milestone
database and the Security and Privacy Posture Summary Status Report, which is used by
the Office of the Chief Information Officer to monitor Operating Administrations’
progress in correcting identified security weaknesses.

Total Number of Open Plan of Action Milestones, Office of the Chief Information
Officers Report, 4674, Plan of Action and Milestones Database, 5442, Difference, 768.

Plan of Action and Milestones not Categorized, Office of the Chief Information Officers
Report, 247, Plan of Action and Milestones Database, 395, Difference, 148.

Unidentified Cost, Office of the Chief Information Officers Report, 0, Plan of Action and
Milestones Database, 2393, Difference, 2393.

Overdue Plan of Action of Milestones, Office of the Chief Information Officers Report,
276, Plan of Action and Milestones Databse, 936, Difference, 660.

Table 6, depicted in the Fiscal Year 2009 Audit of Department of Transportation’s
Information Security Program and Practices Report, on page 14, titled “Sample Systems
Results Summary by Operating Administration.”

This table summarizes our review of the sampled certification and accreditation packages
provided by Operating Administrations. The table provides the number of systems
sampled in each Operating Administration, the number of systems with non-compliant
                                                                                            37



certification and accreditations, the number of systems without annual testing, and the
number of systems without tested contingency plans.

Number of Sampled Systems, Federal Aviation Administration, 28, Federal Highway
Administration, 1, Federal Motor Carrier Safety Administration, 3, Federal Railroad
Administration, 1, Federal Transit Administration, 2, Maritime Administration, 1,
National Highway Transportation Safety Administration, 1, Office of the Secretary, 6,
Pipeline and Hazardous Materials Safety Administration, 1, Research and Innovative
Technology Administration, 1, Total 45.

Systems without fully compliant certification and accreditations, Federal Aviation
Administration, 22, Federal Highway Administration, 0, Federal Motor Carrier Safety
Administration, 0, Federal Railroad Administration, 0, Federal Transit Administration, 0,
Maritime Administration, 1, National Highway Transportation Safety Administration, 0,
Office of the Secretary, 2, Pipeline and Hazardous Materials Safety Administration, 0,
Research and Innovative Technology Administration, 0, Total 25.

Systems without annual testing, Federal Aviation Administration, 5, Federal Highway
Administration, 0, Federal Motor Carrier Safety Administration, 2, Federal Railroad
Administration, 0, Federal Transit Administration, 0, Maritime Administration, 1,
National Highway Transportation Safety Administration, 1, Office of the Secretary, 0,
Pipeline and Hazardous Materials Safety Administration, 0, Research and Innovative
Technology Administration, 0, Total 9.

Systems without tested contingency plans, Federal Aviation Administration, 16, Federal
Highway Administration, 1, Federal Motor Carrier Safety Administration, 0, Federal
Railroad Administration, 1, Federal Transit Administration, 0, Maritime Administration,
1, National Highway Transportation Safety Administration, 0, Office of the Secretary, 2,
Pipeline and Hazardous Materials Safety Administration, 1, Research and Innovative
Technology Administration, 0, Total 22.


Table 7, depicted in the Fiscal Year 2009 Audit of Department of Transportation’s
Information Security Program and Practices Report, on page 15, titled “DOT
Implementation of Office of Management and Budget Privacy Initiatives.”

This table summarizes the Department of Transportation’s status in implementing the
Office of Management and Budget privacy initiatives in the areas of social security
number reduction, two-factor authentication, and encryption of personally identifiable
information on mobile devices.

OMB Initiative, Complete Social Security Number and Personally Identifiable
Information Reduction, Status, the Department of Transportation identified 25 systems
                                                                                           38



that can reduce use of social security numbers. Only 5 systems have completed a plan to
do so. In addition, FAA does not plan to eliminate unnecessary use of social security
numbers until 2015.

OMB Initiative, Allow remote access only with two-factor authentication where one of
the factors is provided by a device separate from the computer gaining access, Status,
Two-factor authentication delayed until the Department of Transportation implements
Homeland Security Presidential Directive 12.

OMB Initiative, ensure that all personally identifiable information stored or carried on
mobile computers and devices is encrypted using National Institute of Standards and
Technology approved encryption. Status, as of July 2, 2009, 592 out of 11723 mobile
devices from the Department have not had National Institute of Standards and
Technology approved encryption applied. However, no data were available for Federal
Aviation Administration and Federal Highway Administration.

Table 8, depicted in the Fiscal Year 2009 Audit of Department of Transportation’s
Information Security Program and Practices Report on page 20, 21, 22 and 23, titled
“Office of Inspector General’s Representative Subset of Department of Transportation
Systems.”

This table lists the 45 systems selected as part of the Office of Inspector General’s
representative sample of the Department of Transportation’s systems along with their
corresponding Operating Administration, Impact Level, and whether it is a contractor
system.

Operating Administration, Federal Aviation Administration, System Name,
Accident/Incident and Enforcement Query Tool, Impact Level, Moderate, Contractor
System, No.

Operating Administration, Federal Aviation Administration, System Name, Security and
Hazardous Materials Office Headquarter Local Area Network, Impact Level, Moderate,
Contractor System, No.

Operating Administration, Federal Aviation Administration, System Name, Security and
Hazardous Materials Office Local Area Networks, Impact Level, Moderate, Contractor
System, No.

Operating Administration, Federal Aviation Administration, System Name, Air Traffic
Organization Consolidated Local Area Network, Impact Level, Low, Contractor System,
No.
                                                                                        39



Operating Administration, Federal Aviation Administration, System Name, Air Traffic
Organization Network, Impact Level, Moderate, Contractor System, No.

Operating Administration, Federal Aviation Administration, System Name, Aviation
Safety Information Analysis and Sharing System, Impact Level, Moderate, Contractor
System, No.

Operating Administration, Federal Aviation Administration, System Name, Capability
and Architecture Tool Suite, Impact Level, Low, Contractor System, No.

Operating Administration, Federal Aviation Administration, System Name, Collaborative
Routing Coordination Tool, Impact Level, Low, Contractor System, No.
Operating Administration, Federal Aviation Administration, System Name, Delphi
Tracking System, Impact Level, Moderate, Contractor System, No.

Operating Administration, Federal Aviation Administration, System Name, Eastern
Region Office of Government Ethics 450, Impact Level, Moderate, Contractor System,
No.

Operating Administration, Federal Aviation Administration, System Name, Enterprise
Architecture Portal Metadata Repository, Impact Level, Low, Contractor System, No.

Operating Administration, Federal Aviation Administration, System Name, Excellence
through Quality Reliance, Impact Level, Moderate, Contractor System, No.

Operating Administration, Federal Aviation Administration, System Name, Flight
Service for the Twenty First Century, Impact Level, Moderate, Contractor System, No.

Operating Administration, Federal Aviation Administration, System Name, Flight
Systems Laboratory Software Tool Set, Impact Level, Low, Contractor System, No.

Operating Administration, Federal Aviation Administration, System Name, Information
Technology Asset Management System, Impact Level, Low, Contractor System, No.

Operating Administration, Federal Aviation Administration, System Name, Integrated
Rulemaking Management Information System, Impact Level, High, Contractor System,
No.

Operating Administration, Federal Aviation Administration, System Name, Monitor
Safety Related Data / Aviation Safety Accident Prevention Program, Impact Level,
Moderate, Contractor System, No.
                                                                                       40



Operating Administration, Federal Aviation Administration, System Name, National
Airspace Data Interchange Network Message Switch Rehost, Impact Level, Moderate,
Contractor System, No.

Operating Administration, Federal Aviation Administration, System Name, National
Airspace System Technical Evaluation Program, Impact Level, Low, Contractor System,
No.

Operating Administration, Federal Aviation Administration, System Name, Office of
Airports Local Area Networks, Impact Level, Moderate, Contractor System, No.

Operating Administration, Federal Aviation Administration, System Name, Operations
Specifications Sub-System, Impact Level, High, Contractor System, No.

Operating Administration, Federal Aviation Administration, System Name, Payback,
Impact Level, Moderate, Contractor System, No.

Operating Administration, Federal Aviation Administration, System Name, Risk Based
Resource Targeting, Impact Level, Moderate, Contractor System, No.

Operating Administration, Federal Aviation Administration, System Name, Safety
Program Notification System, Impact Level, Moderate, Contractor System, No.

Operating Administration, Federal Aviation Administration, System Name, Selections
Within Faster Times, Impact Level, Moderate, Contractor System, No.

Operating Administration, Federal Aviation Administration, System Name, Staffing and
Cost Analysis Tool, Impact Level, Moderate, Contractor System, No.

Operating Administration, Federal Aviation Administration, System Name, Voice
Switching and Control System, Impact Level, Moderate, Contractor System, No.

Operating Administration, Federal Aviation Administration, System Name,
Whistleblower Protection Program, Impact Level, High, Contractor System, No.

Operating Administration, Federal Highway Administration, System Name, Delphi
Interface Maintenance System, Impact Level, High, Contractor System, No.

Operating Administration, Federal Motor Carrier Safety Administration, System Name,
Commercial Vehicle Information Systems and Networks Web Site, Impact Level, Low,
Contractor System, No.
                                                                                         41



Operating Administration, Federal Motor Carrier Safety Administration, System Name,
Compass, Impact Level, Moderate, Contractor System, No.

Operating Administration, Federal Motor Carrier Safety Administration, System Name,
Gotham, Impact Level, Moderate, Contractor System, No.

Operating Administration, Federal Railroad Administration, System Name, Railroad
Credit Risk Assessment, Impact Level, Low, Contractor System, No.

Operating Administration, Federal Transit Administration, System Name, Federal Transit
Administration Internet Intranet, Impact Level, Moderate, Contractor System, Yes.

Operating Administration, Federal Transit Administration, System Name, National
Transit Database, Impact Level, Moderate, Contractor System, Yes.

Operating Administration, Maritime Administration, System Name, Enclave 1, Impact
Level, Low, Contractor System, No.

Operating Administration, National Highway Transportation Safety Administration,
System Name, Support Delivery Services, Impact Level, Moderate, Contractor System,
No.

Operating Administration, Office of the Secretary, System Name, Case Tracking System,
Impact Level, Moderate, Contractor System, No.

Operating Administration, Office of the Secretary, System Name, Correspondence
Control Management System, Impact Level, Moderate, Contractor System, No.

Operating Administration, Office of the Secretary, System Name, Grant Information
System, Impact Level, Low, Contractor System, Yes.

Operating Administration, Office of the Secretary, System Name, Security Operations
Systems, Impact Level, High, Contractor System, Yes.

Operating Administration, Office of the Secretary, System Name, Transportation
Integrated Print Transaction System, Impact Level, Low, Contractor System, Yes.

Operating Administration, Office of the Secretary, System Name, Workman
Compensation Information System, Impact Level, Moderate, Contractor System, No.

Operating Administration, Pipeline and Hazardous Materials Safety Administration,
System Name, National Pipeline Management System, Impact Level, Low, Contractor
System, Yes.
                                                                                           42




Operating Administration, Research and Innovative Technology Administration, System
Name, Volpe Center PRISM System, Impact Level, Moderate, Contractor System, Yes.

Exhibit B, depicted in the Fiscal Year 2009 Audit of Department of Transportation’s
Information Security Program and Practices Report, page 24, titled “Department of
Transportation Operating Administrations and System Inventory Counts.” This table
provides the number of systems reported by each Operating Administration in Fiscal
Years 2008 and 2009.

Federal Aviation Administration reported 274 systems in Fiscal Year 2009 and 264
systems in Fiscal Year 2008.

Federal Highway Administration reported 21 systems in Fiscal Year 2009 and 26 systems
in Fiscal Year 2008.

Federal Motor Carrier Safety Administration reported 21 systems in Fiscal Year 2009 and
23 systems in Fiscal Year 2008.

Federal Railroad Administration reported 12 systems in Fiscal Year 2009 and 21 systems
in Fiscal Year 2008.

Federal Transit Administration reported 5 systems in Fiscal Year 2009 and 5 systems in
Fiscal Year 2008.

Maritime Administration reported 10 systems in Fiscal Year 2009 and 13 systems in
Fiscal Year 2008.

National Highway Traffic Safety Administration reported 10 systems in Fiscal Year 2009
and 11 systems in Fiscal Year 2008.

Office of Inspector General reported 2 systems in Fiscal Year 2009 and 2 systems in
Fiscal Year 2008.

Office of the Secretary reported 36 systems in Fiscal Year 2009 and 44 systems in Fiscal
Year 2008.

Pipeline and Hazardous Materials Safety Administration reported 5 systems in Fiscal
Year 2009 and 4 systems in Fiscal Year 2008.


Research and Innovative Technology Administration reported 10 systems in Fiscal Year
2009 and 9 systems in Fiscal Year 2008.
                                                                                            43




Saint Lawrence Seaway Development Corporation reported 1 system in Fiscal Year 2009
and 1 system in Fiscal Year 2008.

Surface Transportation Board reported 2 systems in Fiscal Year 2009 and 2 systems in
Fiscal Year 2008.

In total, the Department of Transportation reported 409 systems in Fiscal Year 2009 and
425 systems in Fiscal Year 2008.


Exhibit C, depicted in the Fiscal Year 2009 Audit of Department of Transportation’s
Information Security Program and Practices Report on pages 25, 26, and 27, titled “Status
of Prior Year’s Recommendations.” This table provides a listing of the recommendations
made in the Fiscal Year 2008 Federal Information Security Management Act audit and
their current status.

Fiscal Year 2008, Recommendation 1, Provide information security performance metrics
to be included in Operating Administration Chief Information Officers performance
standards and subsequently provide input on their performance in addressing these
metrics, Status, Closed.

Fiscal Year 2008, Recommendation 2, Develop and issue comprehensive, compliant
information security policies and procedures as required by the Federal Information
Security Management Act, the Office of Management and Budget, and the National
Institute of Standards and Technology, Status, Closed.

Fiscal Year 2008, Recommendation 3, Complete review of its draft breach-notification
policy, perform revisions as necessary to conform to the Office of Management and
Budget requirements, and issue an official breach-notification policy, Status, Closed.

Fiscal Year 2008, Recommendation 4, Review and finalize its plan to reduce Social
Security numbers, and implement the reduction of Social Security numbers in the time
frame set forth by Office of Management and Budget, Status, Open.

Fiscal Year 2008, Recommendation 5, Issue a policy outlining the rules of behavior and
identifying consequences and corrective actions available for failure to protect privacy,
Status, Closed.

Fiscal Year   2008, Recommendation 6, Establish a department-wide internal Federal
Information   Security Management Act cut-off date that allows sufficient time for the
Department    to conduct meaningful internal review, which includes evaluating the
accuracy of   the data it includes in its Federal Information Security Management Act
                                                                                             44



report as well as time to resolve any potential disputes with the Office of the Inspector
General, Status, Closed.

Fiscal Year 2008, Recommendation 7, Maintain an adequate audit trail of data supporting
the Federal Information Security Management Act reports as of the selected cut-off date,
Status, Closed.

Fiscal Year 2008, Recommendation 8, Assign a priority to finalizing the Department of
Transportation configuration management policy, Status, Closed.

Fiscal Year 2008, Recommendation 9, Require Operating Administrations to periodically
report status of baseline configuration compliance and independently validate compliance
status reported by Operating Administrations, Status, Closed.

Fiscal Year 2008, Recommendation 10, Implement National Institute of Standards and
Technology Federal Desktop Core Configuration settings on the Window X.P.
workstations on the Department of Transportation Common Operating Environment,
require Operating Administrations to implement Federal Desktop Core Configuration
settings on Operating Administrations Windows X.P. workstations, and document any
required deviations from those settings, Status, Closed.

Fiscal Year 2008, Recommendation 11, Establish a timetable for Operating
Administrations to work with the Cyber Security Management Center to deploy
monitoring devices covering all Department of Transportation critical networks, Status,
Closed.

Fiscal Year 2008, Recommendation 12, Enforce Operating Administrations’ reporting of
Personally Identifiable Information related security incidents to the Cyber Security
Management Center immediately upon discovery, as specified by Department of
Transportation policy, Status, Closed.

Fiscal Year 2008, Recommendation 13, Revise Department of Transportation policies to
meet the Office of Management and Budget requirement for reporting Personally
Identifiable Information incidents, Status, Closed.

Fiscal Year 2008, Recommendation 14, Implement procedures for Operating
Administrations to take timely remedial action for identified incidents, Status, Closed.

Fiscal Year 2008, Recommendation 15, Direct the Cyber Security Management Center
and Operating Administrations to work together to collect and share the information
needed for cyber incident-response reporting, such as I.P.-address assignment and critical
logging data, Status, Closed.
                                                                                               45



Fiscal Year 2008, Recommendation 16, Enforce the requirements for all employees and
contractors to take security-awareness training in order to gain and maintain access to
Department systems, Status, Closed, however new recommendations were made in this
year’s audit to continue addressing these deficiencies.

Fiscal Year 2008, Recommendation 17, Establish a tracking system or other process that
effectively and routinely accounts for all active contractors requiring security training,
Status, Closed, however new recommendations were made in this year’s audit to continue
addressing these deficiencies.

Fiscal Year 2008, Recommendation 18, Establish a mechanism to identify and train
employees and contractors requiring specialized security training, Status, Closed,
however new recommendations were made in this year’s audit to continue addressing
these deficiencies.

Fiscal Year 2008, Recommendation 19, Include collaborative Web technologies in the
Department’s required security-awareness training, Status, Open.

Fiscal Year 2008, Recommendation 20, Ensure that all weaknesses that are identified
during reviews, including certification and accreditation, and that require remediation, are
tracked in the Department’s POA&M system, Status, Closed, however new
recommendations were made in this year’s audit to continue addressing these
deficiencies.

Fiscal Year 2008, Recommendation 21, Establish adequate policies for timeliness of
remediation and enforce such policies, Status, Closed.

Fiscal Year 2008, Recommendation 22, Require that all identified weaknesses include a
cost estimate and that these estimates, along with the severity of the weakness, be used to
prioritize these weaknesses for correction, Status, Closed.

Fiscal Year 2008, Recommendation 23, Implement a process to ensure that all
departmental systems that require e-authentication are identified in the e-authentication
system inventory and that the necessary e-authentication supporting documentation is
obtained or developed for these systems, Status, Closed.

Fiscal Year 2008, Recommendation 24, Ensure that all systems that require e-
authentication have certification and accreditation packages that include support for e-
authentication in the appropriate sections of their system security plans and risk
assessments, Status, Closed.

Fiscal Year 2008, Recommendation 25, Validate that e-authentication systems have
operationally achieved the required assurance level, Status, Open.
                                                                                           46




Fiscal Year 2008, Recommendation 26, Require development and appropriate annual
testing of system contingency plans and ensure that tested contingency plans are updated
based on the results of the contingency plan tests performed, Status, Closed, however
new recommendations were made in this year’s audit to continue addressing these
deficiencies.

Fiscal Year 2008, Recommendation 27, Enforce certification and accreditation
requirements uniformly throughout the Department, Status, Closed.
